No. 20-1218
INTHE

hpmne C!!nurl nf tltt lnitth &tatts
DEMETRIUS WILLIAM EDWARDS AND
BRYANT LAMONT ROYSTER,

Petitioners,

v.

SHERRYL. BURT, WARDEN, AND
KEVIN LINDSEY, WARDEN,

Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS

FOR THE SIXTH CIRCUIT

CERTIFICATE OF SERVICE

I, Alan E. Schoenfeld, a member of the bar of this Court, hereby certify that, on
this 8th day of June, 2021, all parties required to be served have been served copies of
the Reply Brief for Petitioners in this matter by overnight courier to the address on the
attached service list.

A LANE. SCHOENFELD
WILMER CUTLER PICKERING
HALE AND DORR LLP

7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 937-7294

alan.schoenfeld@wilmerhale.com

SERVICE LIST
DANA NESSEL
MICHIGAN ATTORNEY GENERAL
FADWA HAMMOND
MICHIGAN SOLICITOR GENERAL
JARED D. SCHULTZ
JOHNS. PALLAS
SCOTT R. SHIMKUS
ASSISTANT ATTORNEY GENERAL
MICHIGAN DEPARTMENT OF THE ATTORNEY GENERAL

Criminal Appellate Division
525 W. Ottawa Street
POBox30212
Lansing, MI 48909
(517) 335-7650
schultzj 15@michigan.gov
pallasj@michigan.gov
shimkuss@michigan.gov

